GR-80-98-011
DEPARTMENT OF JUSTICE
 
Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
EDINBURG POLICE DEPARTMENT EDINBURG, TEXAS
AUDIT REPORT NUMBER GR-80-98-011
MARCH 27, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the City of Edinburg, Texas. Edinburg received a grant of
$119,049 to hire two police officers under the Funding Accelerated for Smaller Towns
(FAST) program and $194,926 to hire three police officers under the Universal Hiring
Program (UHP.) The purpose of the additional officers is to enhance community policing
efforts.
Generally, the City of Edinburg properly managed the COPS grants; however, we found the
following weaknesses with regard to meeting the grant conditions:


- The Edinburg Police Department overstated its FAST/UHP grant application by $17,095.
- The two Requests for Reimbursement that were completed but not yet submitted to the
    Office of Justice Programs (OJP) did not allow for a decreasing Federal share of total
    allowable costs.
- Both Financial Status Reports were submitted late to OJP.
#####